January 23, 2009

H. GLEN WALKER
CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE PRESIDENT

RONALD E. HENDERSON
MANAGER, HEALTH AND RESOURCE MANAGEMENT

WILLIAM (ASHLEY) LYONS
MANAGER, CORPORATE FINANCIAL PLANNING

AREA FINANCE MANAGERS

SUBJECT:         Audit Report - Controls over Supervisor Leave
                 (Report Number CRR-AR-09-002)

This report presents the results of our self-initiated audit of controls over supervisor
leave (Project Number 08RG022CRR000). Our objective was to determine whether
controls over supervisory leave were adequate. The Postal Accountability and
Enhancement Act (Postal Act of 2006) requires the U.S. Postal Service Office of
Inspector General (OIG) to regularly audit the data collection systems and procedures
the U.S. Postal Service uses to prepare its reports analyzing costs, revenue, rates, and
quality of service for the Postal Regulatory Commission. During our review of In-Office
Cost System (IOCS) telephone readings,1 we noted inaccuracies in supervisor work and
leave data recorded in the Time and Attendance Collection System (TACS). This
follow-up review to that audit focuses on supervisor leave controls and addresses
financial risk. See Appendix A for additional information about this audit.

Conclusion

Controls over manual processing of supervisor2 leave were insufficient to ensure
management approved the leave, recorded it in the TACS, and appropriately charged it
to the supervisor’s leave balance. We confirmed the leave status of supervisors where
there was a discrepancy between the work/leave status reported during IOCS testing
and the information recorded in the TACS. Management did not put supervisor leave
into the TACS for 46 out of 124 (37 percent) of the IOCS/TACS discrepancies we
confirmed. In 24 of the 46 exceptions, leave slips were not on file, while in the other 22
exception cases, leave slips were on file but management did not enter the leave into
1
 In-Office Cost System Telephone Readings, Report Number CRR-AR-08-004, issued March 31, 2008.
2
 Executive and Administrative Schedule (EAS) - Nonbargaining unit career and noncareer employees in supervisory,
professional, technical, clerical, administrative, and managerial positions.
Controls over Supervisor Leave                                                              CRR-AR-09-002



the TACS. Policy revisions to allow electronic approval and input of supervisory leave
requests could strengthen compliance with proper leave accounting. Further, providing
supervisor IOCS/TACS discrepancy reports to the area finance managers would
strengthen internal control reviews of supervisor leave.

We estimate the nationwide monetary impact of unrecorded supervisor leave for the
period October 1, 2007, through May 23, 2008, to be at least $1,759,631 in
unrecoverable questioned costs.3 If management implements our recommendations,
we estimate the Postal Service would save, over a 2-year period, $5,442,928 in funds it
could put to better use. We will report these monetary impacts, totaling $7,202,559, in
our next Semiannual Report to Congress. See Appendix C for additional details on
monetary impact.

Controls over Supervisor Leave Processing

We found insufficient controls over the approval and recording of supervisor leave. We
examined 124 IOCS/TACS discrepancies.4 In 46 of the 124 (37 percent) IOCS/TACS
discrepancies tested, we confirmed that supervisors used 1,104 hours of leave not
recorded in the TACS. This occurred because:

•   Supervisors did not submit leave slips.
•   Leave slips were not on file.
•   Management did not enter the leave into the TACS.

For the 46 supervisors, the amount of leave taken but not recorded in the TACS ranged
from 8 to 112 hours. During our review, management processed leave adjustments for
the discrepancies we brought to their attention.

We were unable to determine the work/leave status for another 20 of the 124
supervisors and forwarded that information to the area managers for follow-up analysis.

Management could reduce the amount of leave not put into the TACS by expanding use
of the Enterprise Resource Management System (eRMS) to encompass both scheduled
and non-scheduled supervisory leave requests. This would require policy changes to
Handbook F-21, Time and Attendance. Additionally, management should reinforce the
importance of following the current leave policies and procedures. See Appendix B for
our detailed analysis of this topic.

We recommend the Manager, Health and Resource Management, direct the Program
Manager, Resource Management, to:




3
  Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation. In addition,
these costs are not supported by adequate documentation.
4
  An event (i.e., leave status or other activity) recorded in IOCS that is not recorded in the TACS or vice versa.

                                                          2
Controls over Supervisor Leave                                       CRR-AR-09-002



1. Explore the feasibility of using the Enterprise Resource Management System to
   enable the submission, approval, and posting to the Time and Attendance Collection
   System of scheduled supervisor leave requests.

We recommend the Chief Financial Officer, Executive Vice President:

2. Issue a policy memorandum to the area finance managers reinforcing the
   importance of the current supervisory leave policies and procedures.

Field Reviews of Supervisor Leave

Statistical Programs provides each district with IOCS/TACS discrepancy reports that
highlight differences in information recorded during IOCS readings and information
recorded in the TACS. However, these reports do not include supervisors. Including
supervisors in the IOCS/TACS discrepancy reports would improve the accuracy of
IOCS data and provide an additional check on supervisory leave not put into the TACS.

Postal Service field organizations periodically inspect leave controls during payroll
reviews or internal control reviews that support the Sarbanes-Oxley Act of 2002. Field
organizations could use the supervisory IOCS/TACS discrepancy reports to supplement
their internal control reviews. See Appendix B for our detailed analysis of this topic.

We recommend the Manager, Corporate Financial Planning, direct the Manager,
Statistical Programs, to:

3. Expand the In-Office Cost System/Time and Attendance Collection System
   discrepancy reports to include supervisory In-Office Cost System readings.

We recommend area finance managers direct district finance managers to:

4. Incorporate information from the supervisory In-Office Cost System/Time and
   Attendance Collection System discrepancy reports into their supervisory leave
   reviews.

Management’s Comments

Management agreed with each of the findings and recommendations. They agreed to
complete an analysis, including the feasibility and associated costs, of using the eRMS
for submitting, approving, and posting scheduled supervisor leave to the TACS.
Management also agreed to reinforce the importance of the current supervisory leave
policies and procedures, expand IOCS/TACS discrepancy reports to include
supervisors, and include these discrepancy reports in supervisory leave reviews.

Management generally agreed with the monetary findings. The only exception was
Western Area management, who indicated they were unable to comment on the
accuracy of monetary benefits that were national in scope, and expressed concern that


                                           3
Controls over Supervisor Leave                                      CRR-AR-09-002



they might be overstated. Management’s comments, in their entirety, are included in
Appendix D.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report.

We evaluated Western Area management’s comment that questioned whether the
nationwide monetary benefit might be overstated. We did not include in our monetary
benefit calculations any IOCS/TACS discrepancies in which management determined
that IOCS data was erroneous. Accordingly, no change in our monetary benefit
calculation is warranted. We will report $1,759,631 in questioned costs and $5,442,928
in funds put to better use in our Semiannual Report to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, Director, Cost,
Revenue and Rates, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc:    Deborah Giannoni-Jackson
       Lynn Malcolm
       J. Ron Poland
       Adlar Anderson
       Katherine S. Banks




                                           4
Controls over Supervisor Leave                                                          CRR-AR-09-002



                                 APPENDIX A: DETAILED ANALYSIS

BACKGROUND

The TACS is an automated time and attendance system all Postal Service facilities use.
According to time and attendance policies,5 supervisors are subject to special leave
procedures as they generally are not required to record daily clock rings6 and are paid
on a salary basis. They are charged with annual leave, sick leave, leave without pay, or
absent without leave when they are absent from work for 1 or more full days.
Management may grant them a personal absence of up to 4 hours without charging that
absence to official leave.

According to Handbook F-21, Sections 323.1 and 333.2, all annual and sick leave
entries except for personal leave must be supported in writing by an approved Postal
Service (PS) Form 3971, Request for or Notification of Absence. At the discretion of the
installation head, employees may use a PS Form 3971 to request personal absences
not charged to leave. At Postal Service installations, supervisors are responsible for
acting on all leave requests while a timekeeper is responsible for keeping record of the
time worked and leave requested by employees. The timekeeper also maintains files of
forms, including PS Forms 3971, that support time and attendance-related information.
Timekeepers are to retain PS Forms 3971 for 2 years from the date the leave is taken
or disapproved.

The IOCS is an employee work sampling system that management uses to distribute
the labor costs of clerks, mail handlers, city carriers, and supervisors to the activities
carried out by those employees and to classes and subclasses of mail and special
services. The IOCS samples employee work time and then develops estimates of work
time spent on various functions in the office and the time spent handling or processing
categories of mail. During fiscal year (FY) 2007, the Postal Service conducted over
700,000 IOCS readings. According to management, 44,166 IOCS readings were
scheduled for 38,350 EAS employees designated as either professional and
administrative or managers and supervisors.

The Postal Service’s Statistical Programs group provides IOCS/TACS discrepancy
reports to each district after the close of each pay period. Management uses these
reports to assess the accuracy of IOCS readings by comparing the work activity
recorded during an IOCS reading with the employee work activity recorded in the TACS.
An IOCS/TACS discrepancy is generated when the work activity recorded during the
IOCS reading does not match the work activity recorded in the TACS. One type of
discrepancy occurs when the IOCS reading records that the employee was not working
(on leave) while the TACS records that the employee was working.



5
    Handbook F-21, Time and Attendance, June 2002 – updated through August 2005, Section 313 and Exhibit 141.
6
    Time entries recorded electronically, mechanically (using a time clock), or manually (written in).


                                                        5
Controls over Supervisor Leave                                                 CRR-AR-09-002


The eRMS provides a systematic approach to leave processing. The eRMS is
integrated with the TACS and leave slips are system-generated. According to
management, as of November 2008, the Postal Service integrated 15,838 eRMS-
enabled Postal Service facilities (representing 674,003 employees) with the TACS. The
Enterprise Leave Request Application (eLRA), a component of eRMS, allows EAS
employees to request unscheduled leave over the Internet through the Postal Service’s
extranet website.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our overall audit objective was to determine whether controls over supervisory leave
were adequate.

To select our EAS supervisor sample, we obtained IOCS/TACS discrepancy reports for
supervisors for an 8-month period, October 1, 2007, to May 23, 2008. We identified 147
occurrences in which the IOCS reading reported the supervisor was on leave, but the
TACS data indicated the supervisor was on duty (an IOCS/TACS discrepancy). We
reviewed the Adjustment Processing System to determine whether management had
processed payroll adjustments7 after the IOCS/TACS discrepancies had been reported
and found eight such discrepancies. We also identified 15 discrepancies where the
TACS report showed evidence of management oversight. For example, the TACS
reports showed timekeepers manually deleted the leave, manually input workhours, or
manually recorded clock rings. We removed those 23 discrepancies from our sample
and conducted tests on the remaining 124 IOCS/TACS discrepancies.

To determine whether the EAS employees were in leave status when the IOCS reading
was conducted, we contacted the sampled employees’ supervisors and obtained
documentation to support the employees’ leave or work status.

We conducted this performance audit from June 2008 through January 2009, in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on November 25, 2008, and included
their comments where appropriate.




7
    Correction to an employee’s payroll data after the pay period is closed.


                                                             6
   Controls over Supervisor Leave                                     CRR-AR-09-002


   PRIOR AUDIT COVERAGE

                                       Final Report    Monetary
    Report Title      Report Number        Date         Impact              Report Results
In-Office Cost        CRR-AR-08-004   March 31, 2008   $12,355    We tested 163 IOCS telephone
System Telephone                                                  readings and observed two
Readings                                                          instances where controls over
                                                                  supervisor leave were
                                                                  questionable. The IOCS reading
                                                                  reported the supervisor was on
                                                                  leave, but management did not
                                                                  record the leave in the TACS.
                                                                  Management processed leave
                                                                  adjustments for the two
                                                                  discrepancies we brought to
                                                                  their attention.




                                               7
Controls over Supervisor Leave                                                            CRR-AR-09-002


                                APPENDIX B: DETAILED ANALYSIS

Controls over Supervisor Leave Processing

Our tests indicated that management could strengthen controls over supervisor leave to
ensure they enter all approved leave into the timekeeping system so that it can be
appropriately charged to the supervisor’s leave balance. Discrepancies between the
leave status of supervisors as reported via IOCS data collection processes and leave
requests processed through the TACS can be an important indicator of whether leave
policies are properly enforced. When those discrepancies occurred, we found a high
error rate (37 percent) for unprocessed leave. Management could reduce the amount of
unprocessed leave by expanding the use of electronic leave approval and implementing
additional management oversight controls. Management should also reinforce the
importance of the current leave policies and procedures. These steps could also
improve the reliability of IOCS data used in allocating costs to Postal Service products.

We examined 124 IOCS/TACS discrepancies in which IOCS reported a supervisor was
on leave at the time of the IOCS reading, but the TACS indicated the supervisor was at
work. We confirmed that in 46 of 124 (37 percent) of the exceptions, the supervisor was
on leave not recorded in the TACS. This occurred because supervisors did not submit
leave slips, leave slips were not on file, or management did not record the leave in the
TACS. In 24 of the 46 exceptions, leave slips were not submitted or were not on file. In
22 of the 46 exceptions, leave slips were on file but management had not recorded the
leave in the TACS. These 46 exceptions represent 1,104 hours of sick or annual leave
taken but not recorded in the TACS. Additionally, we were unable to determine the
work or leave status for 20 of 124 (16 percent) of the exceptions. We provided the
details on these 20 exceptions to area management for follow-up analysis.

We also found that in 38 of 124 (31 percent) of the exceptions, the IOCS reading was
incorrect. The IOCS reading recorded the supervisor was on leave, but the supervisor
was actually at work. We addressed inaccurate IOCS data in our prior IOCS telephone
reading audit and believe implementing those recommendations can improve the
accuracy of IOCS readings. Therefore, we are not making any additional
recommendations concerning inaccurate IOCS readings.

In 20 of 124 (16 percent) of the exceptions, we identified two other conditions that did
not require adjustments to be processed. In 16 of the 20, both the IOCS reading and
the TACS were correct. For example, a supervisor was on approved personal leave;
the TACS correctly reflected workhours; and the IOCS reading correctly reported leave.8
In the other four, management incorrectly put the leave into the TACS but it did not
require a pay adjustment. See Table 1 for details on the testing totals.



8
  According to Handbook F-21, Sections 313.2 and 313.3, supervisors may be granted a personal absence (leave) up
to, but not to exceed, 4 hours in a day (in special cases a full day) without being charged official leave. Personal
leave is not recorded in the TACS.


                                                         8
Controls over Supervisor Leave                                                          CRR-AR-09-002


                                         Table 1. Test Results

                                                                                     Exceptions
                          Condition                                               Number    Percent
  Supervisor on leave – leave not recorded in TACS                                    46         37
  Unable to verify leave/work status                                                  20         16
  IOCS test incorrect – TACS correct                                                  38         31
  Other                                                                               20         16
  Total exceptions                                                                   124        100

The amount of unrecorded annual or sick leave ranged from 8 hours to 112 hours for
the 46 exceptions. When management does not record supervisory leave in the TACS,
the proper leave accounts are not charged and the supervisors’ leave balances are
overstated, creating the potential for several adverse effects.

    •   Supervisors could use annual leave twice – once without being charged and
        again in the Annual Leave Exchange Program.9
    •   Supervisors could collect pay for unrecorded leave they already used when they
        leave the agency.
    •   Supervisors who are eligible to retire under the Civil Service Retirement System
        would receive credit for unrecorded sick leave as part of their service time
        calculation.

During our review, management took corrective action to process payroll adjustments
totaling $34,913 for 1,056 hours of unrecorded leave for 44 of the 46 supervisors shown
in Table 2 below.

                         Table 2. Distribution of Leave Hours Not Recorded

                                Leave Hours Not Recorded                                             Totals
   Number of
    hours                     8     16     24     32        40   48     56      80 104 112               N/A
   Number of
    occurrences             26       4      3      2   4          1   2   2   1   1                      46
   Total hours             208      64     72     64 160         48 112 160 104 112                   1,104

Supervisors can request unscheduled leave through the eLRA module of the eRMS.
Under eRMS, management electronically approves requests and automatically enters
them into the TACS. During the approval process, management prints and signs an
eRMS-generated PS Form 3971 and presents it to the requesting supervisor for
signature when they return to work. This preserves the integrity of the entire leave
request and approval process.

9
  Management provides career employees permanently assigned to a nonbargaining unit position the option at the
end of the calendar year to exchange for cash a given number of hours of the annual leave they would otherwise
earn during the next leave year.


                                                        9
Controls over Supervisor Leave                                         CRR-AR-09-002


For scheduled leave, supervisors submit a written PS Form 3971 to their managers for
approval. The managers are responsible for acting on the leave request while a
timekeeper is responsible for keeping record of the leave requested by employees and
inputting the approved leave into the TACS. If management approves this request and
either misplaces or does not enter it into the timekeeping system then the integrity of the
leave approval process is compromised. Amending time and attendance policies and
expanding eLRA to handle scheduled leave could make leave controls more effective
and transparent.

Field Reviews of Supervisor Leave

Managers currently prepare IOCS/TACS exception reports for city delivery carriers,
clerks, and mail handlers. Statistical Programs provides area finance managers with
IOCS/TACS exception reports that highlight differences in information recorded during
IOCS readings and information recorded in the TACS. Finance managers use this
information to assess the quality of sampling data IOCS data collectors gather.
However, these reports do not include supervisors because they have automatic clock
rings that indicate on-duty work status unless a leave slip is processed. Including
supervisors in the IOCS/TACS exception reports would improve the accuracy of IOCS
data and provide an additional check on supervisory leave not put into the TACS.

Postal Service field organizations periodically conduct leave control reviews. These
district-level reviews include internal control reviews Financial Control and Support
groups perform in support of the Sarbanes-Oxley Act of 2002, the TACS reviews by
management, and other types of self-initiated supervisor leave reviews. For example,
the Eastern Area reported that during FYs 2007 and 2008 they conducted 3,538
reviews and identified and adjusted 4,686 leave hours (with a value of $207,000) that
were not input into the TACS. Field organizations could use the supervisory
IOCS/TACS exception reports as a supplement to their internal control reviews.




                                            10
Controls over Supervisor Leave                                                            CRR-AR-09-002


                   APPENDIX C: CALCULATION OF MONETARY IMPACT

      Questioned Costs                                                Funds Put to                   Total
         for the Period                         Annualized           Better Use for 2-             Monetary
 October 1, 2007 - May 23, 2008                   Costs                Year Period                  Impact
                                                                                                        
               $1,759,631                       $2,721,464               $5,442,928               $7,202,559

Sample Design

The IOCS sample design stratifies the sampling universe by Cost Ascertainment Group
(CAG)10 and by employee type. The IOCS sample selection is a three-stage process
whereby sites are selected by a simple random process, then individual employees are
selected using a simple random process, and, finally, for any employee chosen in stage
two, a day of the week is selected.

For our purposes, we were only interested in supervisors. For every supervisor-day in
the sample set, we determined whether leave had been taken without being charged.
We verified each IOCS/TACS exception in our sample with management to determine if
leave had been taken but not charged. Where this occurred, we assigned a value to the
supervisor-day equal to the given supervisor’s daily salary. There were 46 such
supervisor-days in the sample set among CAGs A/B, C, D, and F. We assigned a value
of zero to all other supervisor-days in the sample, totaling an estimated 38,450.11

Statistical Projections of the Sample Data

Because of the way the IOCS sample selection was designed, it was necessary for us
to estimate the probability of selection of each member of the sample set and to
calculate a “weight” for each member (mathematical inverse of the probability). The
sum of the individual sample member’s contributions is the point estimate of the
population parameter.12 We performed these calculations for each CAG strata
individually and then calculated the overall point estimate, variance from the point
estimates, and variances of each individual stratum.

The value of the point estimate calculated using the methods outlined above was
$2,441,339. However, the relative sampling precision achieved was + 33.37 percent at
the 95 percent confidence level. This exceeds the OIG sampling precision reporting
standard of 20 percent. Therefore, we are reporting the lower bound of a 90 percent
confidence interval as the estimate because we are 95 percent confident the actual
population parameter is at least as large as this value. This value is $1,759,631. If
management implements our recommendations, we estimate the Postal Service would

10
   A method that classifies post offices according to volume of revenue generated, from CAG A – F.
11
   Although we could not determine precisely the total size of the supervisor-day sample set that IOCS used for the
period October 1, 2007, through May 23, 2008, we were able to estimate the sample set based on FY 2008, Quarter
1 – 3 information provided by Statistical Programs, Headquarters.
12
   Schaeffer, Mendenhall, and Ott, Elementary Survey Sampling (Sixth Edition, 2006), Chapter 3.


                                                         11
Controls over Supervisor Leave                                       CRR-AR-09-002


save, over a 2-year period, about $5,442,928 in funds put to better use. The total
monetary impact is $7,202,559.




                                           12
Controls over Supervisor Leave                             CRR-AR-09-002


                       APPENDIX D: MANAGEMENT’S COMMENTS




                                      13
Controls over Supervisor Leave        CRR-AR-09-002




                                 14
Controls over Supervisor Leave        CRR-AR-09-002




                                 15
Controls over Supervisor Leave        CRR-AR-09-002




                                 16
Controls over Supervisor Leave        CRR-AR-09-002




                                 17
Controls over Supervisor Leave        CRR-AR-09-002




                                 18
Controls over Supervisor Leave        CRR-AR-09-002




                                 19
Controls over Supervisor Leave        CRR-AR-09-002




                                 20
Controls over Supervisor Leave        CRR-AR-09-002




                                 21
Controls over Supervisor Leave        CRR-AR-09-002




                                 22
Controls over Supervisor Leave        CRR-AR-09-002




                                 23
Controls over Supervisor Leave        CRR-AR-09-002




                                 24
